YOUR BILLING RIGHTS –
KEEP THIS DOCUMENT FOR FUTURE USE

This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.

What to Do if You
Find a Mistake on
Your Statement

If you think there is an error on your statement, write to us at:
Public Service Credit Union
Attn: Credit Cards
7055 E Evans Ave
Denver, CO 80224
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you
believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop
payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are
not required to investigate any potential errors and you may have to pay the amount in
question.
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We
will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you
why we believe the bill is correct.

What Will Happen
After We Receive
Your Letter

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that
amount.
• The charge in question may remain on your statement, and we may continue to charge you
interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the
remainder of your balance.
• We can apply any unpaid amount against your credit limit.
• After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or
other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in question,
along with applicable interest and fees. We will send you a statement of the amount you
owe and the date payment is due. We may then report you as delinquent if you do not pay
the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within
10 days telling us that you still refuse to pay. If you do so, we cannot report you as delinquent
without also reporting that you are questioning your bill. We must tell you the name of
anyone to whom we reported you as delinquent, and we must let those organizations know
when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount
you question even if your bill is correct.

Your Rights if You
are Dissatisfied With
Your Credit Card
Purchases

If you are dissatisfied with the goods or services that you have purchased with your credit
card, and you have tried in good faith to correct the problem with the merchant, you may
have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current
mailing address, and the purchase price must have been more than $50. (Note: Neither of
these are necessary if your purchase was based on an advertisement we mailed to you, or if
we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances
from an ATM or with a check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in
writing at:
Public Service Credit Union
Attn: Credit Cards
7055 E Evans Ave
Denver, CO 80224
While we investigate, the same rules apply to the disputed amount as discussed above. After
we finish our investigation, we will tell you our decision. At that point, if we think you owe an
amount and you do not pay, we may report you as delinquent.

